                 U.S. Department of Agriculture

                    Office of Inspector General
                                Midwest Region




       Audit Report

Review of Application Controls
for the Import Tracking System




                     Report No. 33501-0001-Ch
                                   March 2005
                  UNITED STATES DEPARTMENT OF AGRICULTURE
                                  OFFICE OF INSPECTOR GENERAL
                                       Washington D.C. 20250




March 31, 2005



REPLY TO
ATTN OF:      33501-0001-Ch

TO:           Dr. W. Ron DeHaven
              Administrator
              Animal and Plant Health Inspection Service

ATTN:         William J. Hudnell
              Deputy Administrator
              Marketing and Regulatory Programs – Business Services

FROM:         Robert W. Young       /S/
              Assistant Inspector General
                for Audit


This report presents the results of our audit of the Application Controls for the Import Tracking
System. Your agency’s response to the draft report, dated March 7, 2005, is included in its
entirety as exhibit A, with excerpts and the Office of Inspector General’s position incorporated
into the relevant sections of the report.

We agree with your management decisions for Recommendations Nos. 1, 2, 3, and 4. Please
follow your agency’s internal procedures in forwarding final action correspondence to the Office
of the Chief Financial Officer.

Management decision has not been reached for Recommendation No. 5. The Findings and
Recommendations section of the report includes a description of the information needed to reach
a management decision for this recommendation.

In accordance with Departmental Regulation 1720-1, please furnish a reply within 60 days
describing the corrective action taken or planned and the timeframes for implementing this
recommendation. Please note that the regulation requires a management decision to be reached
on all findings and recommendations within a maximum of 6 months from report issuance, and
final action to be taken within 1 year of each management decision.

We appreciate the courtesies and cooperation extended to us by your staff.
Executive Summary
Review of Application Controls for the Import Tracking System

Results in Brief    We performed this audit to determine if the Animal Plant Health Inspection
                    Service (APHIS) had adequate application controls over the Import Tracking
                    System (the system). The system is used to record, verify, and report
                    animals, and live animal products, entering the country at border ports. This
                    includes documenting that animals had been inspected, providing data to the
                    Agricultural Marketing Service, and providing import origination and
                    destination information if the need arises.

                    We found that APHIS had not prescribed internal controls to provide
                    reasonable assurance that data input was accurate and timely. One of the
                    primary automated application controls (programmed in the system) was a
                    completeness check, but this was used only for some of the critical fields on
                    the input form. Look-up tables were also in place for some critical fields to
                    reduce the potential for errors during the input process. The agency had not,
                    however, implemented compensating manual controls, such as second party
                    or supervisory reviews, to detect input errors before transmission to the
                    system when automated controls were lacking. The agency had not
                    distributed system user manuals to all port offices, and had not provided
                    formal training on the system to all staff.

                    The lack of sufficient application controls resulted in errors occurring during
                    the inputting of data into the system. For example, we identified
                    27 instances, of 834 reviewed at the 5 port offices we visited, where the
                    number of animals entering the country in a shipment, as listed on the input
                    document, was different than the number in the system. In 16 instances, the
                    number of animals in those shipments was entered as zero when the actual
                    number of animals entering the country, per the input document, ranged from
                    2 to 464. In another instance, a port office significantly overstated the
                    number of animals crossing the border by erroneously inputting a shipment of
                    50,000 units of bovine sperm into the system as 50,000 live animals.

                    Another error was an inaccurate destination for animals in shipments entering
                    the country.       The agency performed an analysis of approximately
                    812,000 records that identified over 2,600 instances where the importer’s
                    location was listed as unknown, and over 600 instances where the destination
                    was not listed in the system. While the agency plans to correct these errors,
                    the lack of sufficient controls makes it highly likely that errors will continue
                    to occur in the future.

                    The agency also had no requirements for the frequency of transmitting data
                    into the system, and it did not monitor port office transmission activities.
                    Thus, the system lacked up-to-date and therefore accurate information
USDA/OIG-A/33501-0001-Ch                                                                     Page i
                   because port offices were not always transmitting data in a timely manner. In
                   one instance, a port office had not transmitted data into the system for over a
                   year. The failure was discovered only after agency officials created a report
                   from the system that indicated import activity was understated. Another port
                   office had not transmitted data for over a month because of a
                   telecommunication problem.

                   Agency officials were reluctant to implement additional application controls
                   because they estimated the system’s error rate at 1 percent. However, they
                   were unable to provide evidence to support this estimate. Based on our
                   assessment that controls were weak and the errors we identified, we
                   concluded that the system could not provide timely and accurate information
                   on animal import activity. APHIS’ Import Tracking System Application
                   Security Plan, however, rates the security objective “Integrity” as high risk.
                   The plan states, in part, “If the data in the system were inaccurate,
                   incomplete, or falsified it could provide a threat to APHIS and its
                   stakeholders and could cause a grave threat to APHIS’ ability to protect
                   American Agriculture and import/export markets.” To improve the system’s
                   reliability, the agency needs to implement manual controls, automated edit
                   checks such as range and crosscheck tests, and requirements for transmitting
                   data.

                   Access controls also needed improvement. We observed employees at two of
                   the five port offices we visited who were improperly using former employee
                   passwords and user identifications to access the system. At two other port
                   offices, we observed that employees were openly displaying their user
                   identifications and passwords. The agency had inadequate procedures to
                   remove users from the system when they transferred or left the agency. The
                   agency was also not maintaining employee access lists, or monitoring
                   employee actions to safeguard passwords and user identifications.

Recommendations
In Brief           We recommend that APHIS establish manual and automated application
                   controls for the system, distribute system user manuals to port offices, and
                   provide training on the system to port office personnel. We also recommend
                   that the agency develop and implement minimum frequency requirements for
                   transmitting data to the system, and monitor port office data transmission
                   activities. Finally, we recommend that the agency develop procedures for
                   deleting user access to the system.

Agency Response    In its response dated March 7, 2005, APHIS agreed with all the
                   recommendations in the report. We have incorporated applicable portions of
                   APHIS’ response, along with our position, in the Findings and
                   Recommendations section of the report. The agency’s response is included
                   in its entirety as exhibit A of the report.

USDA/OIG-A/33501-0001-Ch                                                                  Page ii
OIG Position       We agree with APHIS’ proposed corrective actions and have reached
                   management decision on all but Recommendation No. 5. In order to reach a
                   management decision for Recommendation No. 5, APHIS needs to
                   implement a system where user identifications in the system are periodically
                   compared to current employees.




USDA/OIG-A/33501-0001-Ch                                                               Page iii
Table of Contents

Executive Summary .................................................................................................................................i

    Review of Application Controls for the Import Tracking System .................................................i

Background and Objectives ................................................................................................................... 1

Findings and Recommendations............................................................................................................ 3

    Section 1. Controls Over Data Accuracy and Completeness ........................................................ 3

        Finding 1             Lack of Application Controls Resulted in Input Errors .......................................... 3
                                  Recommendation No. 1.................................................................................... 5
                                  Recommendation No. 2.................................................................................... 6
        Finding 2             Guidance is Needed to Prevent Data Transmission Lapses .................................... 6
                                  Recommendation No. 3.................................................................................... 7

    Section 2. Controls Over Data Security .......................................................................................... 8

        Finding 3             Weak Access Controls Jeopardize Data Integrity ................................................... 8
                                 Recommendation No. 4.................................................................................... 9
                                 Recommendation No. 5.................................................................................... 9

Scope and Methodology........................................................................................................................ 11

Exhibit A – APHIS Response to the Draft Report............................................................................. 12




USDA/OIG-A/33501-0001-Ch                                                                                                                 Page iv
Background and Objectives
Background         Information security, improving the overall management of information
                   technology resources, and the transition to electronic business
                   (e-government) have emerged as top priorities within the U.S. Department of
                   Agriculture (USDA). As technology has enhanced the ability to share
                   information instantaneously among computers and networks, it has also made
                   organizations more vulnerable to unlawful and destructive penetration and
                   disruptions. In addition to general controls of the operating system,
                   individual applications also require specific controls.

                   Application controls are the structure, policies, and procedures that apply to
                   separate, individual application systems. They can encompass both the
                   routines contained within the computer program code, and the policies and
                   procedures associated with user activities, such as manual measures
                   performed by a user to determine that data was processed accurately by the
                   computer. Application controls help make certain that transactions are valid,
                   properly authorized, and completely and accurately processed by the
                   computer. Controls are commonly categorized into three phases:

                        •   Input—data are authorized, converted to an automated form, and
                            entered into the application in an accurate, complete, and timely
                            manner.

                        •   Processing—data are properly processed by the computer and files
                            are updated correctly.

                        •   Output—files and reports generated by the application actually
                            occur and accurately reflect the results of processing, and reports are
                            controlled and distributed to the authorized users.

                   APHIS’ mission is an integral part of USDA’s efforts to provide safe and
                   affordable food through the protection of the nation’s animal and plant
                   resources from agricultural pests and diseases. One of APHIS’ six
                   operational program units, Veterinary Services, accomplishes this through
                   monitoring and promoting animal health and productivity, and preventing,
                   ontrolling, and eliminating animal diseases.          APHIS currently has
                   38 full-time ports and 26 limited ports for the importation of animals. Using
                   the Import Tracking System (the system), the Veterinary Services unit
                   documents information on all animals and animal products crossing the
                   border into the United States and entering at other designated port locations.
                   The information is entered into the system through a two-page release form.
                   The first page includes importer and destination information. The second
                   page lists the number and type of animals released, unit of measure, species,
                   breed, sex, purpose, number rejected, and any other information that would
                   physically identify the animals.

USDA/OIG-A/33501-0001-Ch                                                                    Page 1
                   The data gathered at each designated port are then transmitted to a national
                   database in Fort Collins, CO. This database contains information for
                   identifying animal import information.        The agency generally needs
                   information about a particular animal of special interest, an animal’s purpose,
                   or its destination State. The Agricultural Marketing Service also uses system
                   information in its efforts to improve marketing of animals. Application
                   controls are necessary to ensure that the system data are accurate and
                   complete.

Objectives         Our objective was to determine whether the system’s application controls
                   were in place and functioning effectively to ensure transactions were properly
                   authorized, and completely and accurately processed.




USDA/OIG-A/33501-0001-Ch                                                                   Page 2
Findings and Recommendations
Section 1. Controls Over Data Accuracy and Completeness

                                   Formal policies and procedures, to include control measures, had not been
                                   prescribed for the Import Tracking System (the system). As a result, we
                                   found that the data’s accuracy could be improved and the timeliness of the
                                   input significantly enhanced. Thus, the system cannot be relied upon as a
                                   timely and accurate source of information for animal import activity.

                                   The Federal Information Processing Standards Publication 73 requires that
                                   data be validated continuously as new data are generated or used during
                                   processing. The validation of data involves an examination for accuracy,
                                   completeness, consistency, and reasonableness. Departmental regulations1
                                   also require agencies to ensure the validity of data when designing and
                                   implementing applications.




Finding 1            Lack of Application Controls Resulted in Input Errors

                                   We identified errors in system data. APHIS and Agricultural Marketing
                                   Service (AMS) officials had also detected errors in system data. (AMS is an
                                   external user of system data.) The types of errors in the system included the
                                   input of incorrect numbers of animals in shipments entering the country,
                                   incorrect purpose codes for animal’s entering the country, and no destination
                                   States for animals. We attributed the system errors primarily to a lack of
                                   prescribed application controls, both automated and manual. A lack of
                                   formal guidance and training for port office employees also contributed to the
                                   errors we found.

                                   We identified errors by comparing system data to input documents at five
                                   port offices. For example, we found 27 instances from 834 records reviewed,
                                   where the number of animals was incorrectly input in the system. This
                                   included 16 instances where the number of animals in shipments entering the
                                   country was input as zero. However, the number of animals listed on the
                                   16 input documents actually ranged from 2 to 464. We also found eight
                                   instances where the purpose of an animal’s entry into the country, as listed in
                                   the system, differed from the input document at the port office.

                                   Agency officials also identified errors in the system. In an analysis
                                   performed at the time of our audit, they identified 614 instances from
                                   calendar years 2002 to 2004 where the system did not identify the destination

1
    DM 3140-1.3 “Management ADP Security Manual,” section 17 (1) (4). “Application System Development,” dated July 19, 1984.

USDA/OIG-A/33501-0001-Ch                                                                                                       Page 3
                   State for animal shipments. In 2,607 instances from over 812,000 records,
                   the importer’s State was listed as unknown. Agency officials also identified
                   an instance where a port office significantly overstated the number of animals
                   crossing the border by erroneously inputting a shipment of 50,000 units of
                   bovine sperm into the system as 50,000 live animals.

                   The errors we found could have been prevented or detected when data was
                   input into the system if sufficient application controls were in place and
                   functioning properly. For example, there were no manual controls in place,
                   such as supervisory or second party reviews, to verify the accuracy of data
                   prior to being input into the system. Further, there was no reconciliation of
                   source document data input at the port office to system records.

                   The system also lacked fully adequate automated application controls. The
                   system data entry form (release form) had built-in completion requirements
                   for some, but not all, fields. “Destination State” is an instance where the field
                   was left blank. In addition, look-up tables were provided on the data input
                   form for only some fields. However, we identified, and agency officials were
                   also aware of, many records where fields for species, breed, purpose, and
                   destination were listed as “other,” “unknown,” or “not specified.” These
                   options should be eliminated or clarified further in a second field, to ensure
                   more accurate information in the system.

                   Other data field validation controls should also be built into the system to
                   prevent the errors found during our review. For example, if the system
                   included a range test, which compares the input number to a range of
                   acceptable numbers, the 50,000 bovine sperm error described earlier could
                   have been identified during the input process. Another control that could
                   improve the system is a crosscheck between data fields. This test would
                   determine the reasonableness of data entered into one field based on data
                   from another field. For example, a crosscheck could be developed that would
                   not allow the input of a record listing the sex of an animal as “castrated male”
                   in one field when the purpose of the animal’s entry into the country is listed
                   in another field as “breeding.” These are just two application controls that
                   check for consistency and reasonableness of data.

                   Agency officials informed us that they had performed their own review of the
                   system, which had identified many of the issues described in this finding.
                   However, they stated that no action had been taken to implement new
                   procedures for several reasons. First, they did not consider the system to be a
                   major application. Therefore, they devoted their limited information
                   technology resources to other systems. Second, the officials estimated the
                   system’s error rate to be less than 1 percent. Lastly, they stated that
                   additional controls would slow down the system at port offices.

                   We disagree with each of these points. The system was initially listed with
                   the Office of the Chief Information Officer as a mission critical application

USDA/OIG-A/33501-0001-Ch                                                                    Page 4
                   and, thus, resources should be used to protect the reliability of system data.
                   Further, APHIS’ “Import Tracking System Security Plan” contradicts these
                   assertions. For example, the security objective “Confidentiality” is rated as
                   high risk and states, in part, “If disclosed to unauthorized persons, data
                   handled by the system (trade data) would likely be a threat to our ability to
                   protect American food supplies and/or support Agriculture and export/import
                   markets, and could cause grave embarrassment for APHIS, its business
                   partners, and stakeholders, with a reasonable expectation of outside
                   investigation, official censure, and/or dismissal of senior managers.”

                   The security objective “Integrity” is also rated high risk and states, in part:
                   “If the data in the system were inaccurate, incomplete, or falsified it could
                   provide a threat to APHIS and stakeholders and could cause a grave threat to
                   APHIS’ ability to protect American Agriculture and import/export markets.”
                   Finally, agency officials provided no evidence to support their statements of a
                   1 percent error rate, nor its contention that the system would be measurably
                   slowed. Consequently, based on the types and frequency of errors found
                   during our review, we concluded that additional controls are needed to ensure
                   data integrity in the system.

                   During our review, agency officials assigned a veterinarian to work with port
                   office staff to resolve errors found in the system. In addition, the agency is in
                   the process of hiring a consultant to perform trend analyses of the system to
                   identify errors. In our opinion, these monitoring actions could be reduced
                   with adequate application controls to prevent errors in the system.

                   Two other reasons for errors are a lack of user manuals at port offices and
                   insufficient training of port office staff. At four of the five port offices we
                   visited, there were no official system user manuals. Without user manuals,
                   errors are likely because employees may use incorrect procedures to input
                   data rather than following specific rules. Further, most port office employees
                   had not received training on the system. Again, employees may be using the
                   wrong procedures and inputting incorrect data into the system.

Recommendation No. 1

                   Establish manual and automated application controls for the system.

                   Agency Response

                   There are insufficient personnel at most port locations to provide second
                   party or supervisory reviews. Therefore, data reviewed by Center for
                   Epidemiology and Animal Health (CEAH) staff and the automated scanning
                   process is intended to assist in identifying errors. However, APHIS will
                   incorporate controls, such as cross-validation, into the VSPS system by
                   April 30, 2005.


USDA/OIG-A/33501-0001-Ch                                                                    Page 5
                    OIG Position

                    We accept APHIS’ management decision for this recommendation.

Recommendation No. 2

                    Provide user manuals and training to all port offices and appropriate
                    employees.

                    Agency Response

                    Initially port personnel were given user manuals when they attended training.
                    In addition, manuals were sent to ports. APHIS will query ports to determine
                    which ports are in need of user manuals by April 30, 2005.

                    OIG Position

                    We accept APHIS’ management decision for this recommendation.




Finding 2   Guidance is Needed to Prevent Data Transmission Lapses

                    APHIS had no requirements indicating the frequency for transmitting data
                    into the system, and it did not monitor port office transmission activities.
                    Agency officials informed us that they consider port office employees
                    capable of transmitting data on a regular basis without a formal policy. They
                    also stated that they have not experienced any significant problems involving
                    data transmission and, therefore, have no reason to monitor that activity. The
                    port offices we visited generally transmitted data into the system daily.
                    However, officials at all but one port office stated that they had not been
                    informed, either orally or in writing, how frequently to transmit data into the
                    system.

                    We found that the system does not always contain accurate and up-to-date
                    information. For example, one port office had not transmitted any import
                    data into the system for over a year. Agency officials discovered the failure
                    to transmit data only after they created a system report that obviously
                    understated import activity. We were subsequently informed that over
                    114,000 birds had entered the county but had not been recorded. Another
                    port office we visited had not transmitted data for over a month. In this
                    instance, a problem in the telecommunication process prevented data from
                    being transmitted to the system. A clear requirement on the frequency of
                    transmitting data, and a process to monitor compliance with the requirement,
                    may have detected these instances in a timelier manner.


USDA/OIG-A/33501-0001-Ch                                                                    Page 6
                   We also identified 16 instances where the staff at one port office was
                   unaware that data updates had not been transmitted to the system. (We
                   uncovered these instances during an analysis of port office records for the
                   months of October 2003 and March 2004.) In one instance, port office staff
                   input data into the system related to animals entering the country. However,
                   when the animals did not actually cross the border on that day, they zeroed
                   the original entry and updated the record at a later time. While the port office
                   database was correctly updated, the national system still listed the number of
                   animals entering the country as zero because it was not updated. The port
                   office staff did not detect the problem because it was not included on the
                   transmission report. Agency officials informed us they had not programmed
                   the system to report instances where updates were not transmitted to the
                   national system.

                   The problems cited above could be reduced or prevented by implementing
                   requirements on the frequency of transmitting data to the system. They could
                   also be detected through the monitoring of port office transmissions.

Recommendation No. 3

                   Develop and implement procedures to regularly transmit data to the system,
                   and monitor such transmission activity as intended.

                   Agency Response

                   APHIS will develop a weekly exception report for the Veterinary Service
                   Process Streamlining System, which could be run by port, area, and regional
                   personnel to assure periodic transmission of import data, by June 30, 2005.


                   OIG Position

                   We accept APHIS’ management decision for this recommendation.




USDA/OIG-A/33501-0001-Ch                                                                    Page 7
Section 2. Controls Over Data Security




Finding 3                     Weak Access Controls Jeopardize Data Integrity

                              Port office employees were improperly using former employee passwords and
                              user identifications, and were not protecting their own passwords and user
                              identifications. This occurred because the agency’s procedures to remove users
                              from the system had not been formally prescribed. Also, the agency was not
                              maintaining employee access lists or monitoring employee actions to safeguard
                              passwords and user identifications. Further, the agency had not provided
                              security awareness training to port office employees. Thus, current employees
                              could access unauthorized areas and manipulate or destroy system records.

                              Departmental regulations2 require agencies to remove employee user accounts
                              and passwords when employees are no longer employed by the agency, or no
                              longer need the same access level to perform their duties. APHIS provides
                              similar guidance for modifying or revoking system access for employees
                              transferring to a new position or leaving the agency.3

                              The Office of Management and Budget requires accountability of logical access
                              through identification and authentication of users of the system.4 The National
                              Institute of Standards and Technology requires auditing and periodically
                              verifying the legitimacy of current accounts and access authorizations.5

                              At two of five offices we visited, we observed employees who were using the
                              passwords and user identifications of former employees to access the system.
                              We also observed that employees at two of five offices were openly displaying
                              their user identifications and passwords. The employees at all of these offices
                              did not view this action as a threat to the system.

                              We attributed these problems to inadequate procedures to remove users from the
                              system. Since the agency did not have written procedures for us to review, we
                              questioned officials about the process for removing former and transferred
                              employees from the system. The officials informed us that port office staff is
                              responsible for contacting an area office supervisor when a user change is
                              necessary. The area office supervisor contacts the Center for Animal Disease
                              Information and Analysis (the center), which physically removes or changes the
                              user in the system.



2
  DM 3140-1.6, Appendix D (6) (c), dated March 05, 1992
3
  APHIS Directives 3140.5 (5) b (8), dated May 26, 2000
4
  Circular A-130, Appendix III, “Security of Federal Automated Information Resources”
5
  NIST SP-800-12 (10.2) page 112, “Introduction to Computer Security”

USDA/OIG-A/33501-0001-Ch                                                                              Page 8
                 The conditions we noted at port offices appeared to have occurred because the
                 staff in those offices had not contacted area office supervisors. However, we
                 could not be certain because the agency had not documented the process. Port
                 office staff informed us that they had not contacted the area office supervisor to
                 remove the users from the system. An official at the center also stated that they
                 do not periodically review access lists to ensure that only authorized employees
                 can enter the system.

                 We attributed employee misuse of passwords and user identifications at port
                 offices, in part, to a lack of overall understanding and awareness of system
                 security. The agency had not provided security awareness training to port office
                 employees. Training on the safeguarding of user identifications and passwords
                 is fundamental for securing and protecting the integrity of data in a system. In
                 Audit Report No. 33099-04-Ch, we recommended that the agency develop and
                 implement security awareness training for all agency employees. The agency
                 agreed to provide this training by September 30, 2004 (although this target date
                 was not met). Since our current audit was performed prior to the agency’s
                 planned date for providing this training, we are not recommending any further
                 action in this report.

Recommendation No. 4

                 Develop and implement procedures for deleting system user accounts.

                 Agency Response

                 The agency stated that monitoring the retirement or movement of personnel and
                 removing their access is difficult. APHIS will institute a 90-day user password
                 expiration routine for ITS users, by June 30, 2005.

                 OIG Position

                 We accept APHIS’ management decision for this recommendation.

Recommendation No. 5

                 Develop procedures to periodically review user access lists and reconcile them
                 to a list of current employees.

                 Agency Response

                 The agency stated that monitoring the retirement or movement of personnel and
                 removing their access is difficult. APHIS will institute a 90-day user password
                 expiration routine for ITS users, by June 30, 2005.




USDA/OIG-A/33501-0001-Ch                                                                    Page 9
                 OIG Position

                 We do not accept APHIS’ management decision for this recommendation. To
                 reach management decision, APHIS needs to implement a system where user
                 identifications in the system are periodically compared to current employees.
                 This action would ensure that former employees’ accounts are removed from the
                 system.




USDA/OIG-A/33501-0001-Ch                                                              Page 10
Scope and Methodology
                   Our audit of application controls over APHIS’ Import Tracking System was
                   part of a nationwide audit of selected USDA agencies. Our review was
                   conducted at APHIS’ Western Regional office in Fort Collins, CO, and at
                   five port offices; Pembina, ND; El Paso, TX; Presidio, TX; Detroit, MI; and
                   Port Huron, MI. After reviewing the list of 64 ports, we judgmentally
                   selected the 5 port offices based on recommendations from agency officials,
                   location, and those with significant animal import activity.

                   We conducted our audit from March 2004 through June 2004, in accordance
                   with Government Auditing Standards.

                   To accomplish our audit objectives, we performed the following audit
                   procedures:

                     •     Reviewed policies, procedures, and system documentation related to
                           the system.

                     •     Interviewed agency officials responsible for the development,
                           management, and data input of the system.

                     •     Performed tests of data authorization, completeness, and accuracy at
                           selected port offices, for October 2003 and March 2004, except for
                           Presidio, TX, where we only reviewed October 2003. We reviewed
                           834 of 4770 records.

                     •     We obtained from APHIS officials the Import Tracking System Report
                           220, “Daily Activity”, for each port office for the months selected
                           above.

                     •     We compared the randomly selected records from each daily activity
                           report to source importation documents. These included; the certificate
                           of origin, the Declaration of Importation, and any other documents
                           deemed necessary to validate information in the database.

                     •     Conducted scans on the APHIS networks related to the system using
                           operating system vulnerability software.




USDA/OIG-A/33501-0001-Ch                                                                  Page 11
Exhibit A – APHIS Response to the Draft Report
                                                 Exhibit A – Page 1 of 4




USDA/OIG-A/33501-0001-Ch                                      Page 12
Exhibit A – APHIS Response to the Draft Report
                                                 Exhibit A – Page 2 of 4




USDA/OIG-A/33501-0001-Ch                                      Page 13
Exhibit A – APHIS Response to the Draft Report
                                                 Exhibit A – Page 3 of 4




USDA/OIG-A/33501-0001-Ch                                      Page 14
Exhibit A – APHIS Response to the Draft Report
                                                 Exhibit A – Page 4 of 4




USDA/OIG-A/33501-0001-Ch                                      Page 15
Informational copies of this report have been distributed to:

Administrator, APHIS
   ATTN: Agency Liaison Officer               9
U.S. Government Accountability Office         1
Office of Management and Budget               1
